                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A07030015
                                                                                  11           Page 1 of 1


 I
          We received an allegation of plagiarism by the subject' in a proposal submitted to NSF

          Our investigation revealed that the subject plagihrized text and figures into six proposals
          submitted to N S F . ~All proposals were declined for funding.

         Based on our recommendations, NSF made a finding of research misconduct, imposed a four-
         year period of certifications and assurances, prohibited the Subject from serving as an advisor,
         reviewer or consultant to NSF for four years, and required the Subject to complete a course on
         research ethics and plagiarism.3 Our report and the agency's decision letter are attached.
    National Science Foundation
      Office of Inspector General




                     Confidential
                Report of Investigation
               Case Number A0703001 5
                        24 September 2008


This Confidential Investigation Report is the property of the NSF O I G and may be disclosed outside
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $$ 552,552a.
      ,   .
                                                                                   NSF OIG Form 22b (1 1/06)
                                        Executive Summarv

       We received an allegation of plagiarism in a proposal submitted to NSF.

OIG's inquiry established that:

       copied text and figures appeared in the subject's proposals submitted to NSF; and
       the text and figures were copied without quotation marks and without citation.

OIG's investigation established that:

       the subject copied 357 unique lines of text and four figures into six proposals submitted
       to NSF; and
       the subject's actions are part of a pattern of plagiarism.

OIG concludes that:

       Act: The subject plagiarized approximately 357 lines of unique text and four figures into
       six proposals submitted to NSF since FY 03.
       Intent: The subject acted knowingly.
       Standard of Proof: A preponderance of the evidence supports the conclusion that the
       subject's acts were a significant departure from accepted practices and therefore
       constitute research misconduct.

OIG recommends that NSF:

       Make a finding of research misconduct against the subject;
       Send a letter of reprimand to the subject;
       Debar the subject from receiving Federal funds for a period of 2 years;
       Require that the subject submit certifications to AIGI, NSF OIG for 2 years after
       debarment ends;
       Require that the subject's employer submit assurances to AIGI, NSF OIG for 2 years
       after debarment ends;
       Prohibit the subject from serving as a merit reviewer of NSF proposals for 2 years after
       debarment ends; and
       Require the subject provide certification to NSF OIG of attendance at a training course in
       proper conduct of research.
                                                      OIG's Inquiry

        We received an allegation that an NSF proposal' submitted by the subject2contained text
copied from uncited publications. Our inquiry confirmed that the text had been copied, and also
revealed that two other proposals submitted by the subject contained text and figures apparently
copied from the work of others without citation.' We wrote to the subject to obtain her
perspective of the allegation (Tab 1). The subject responded (Tab 2) to our letter, and stated:
1) publications from which text was copied "may not have been properly cited;" 2) any lack of
citation was an "unintentional oversight" or "a careless and unintentional mistake on my part;"
3) copied text was "only used in the literature background section." The subject's reply did not
dispel the allegation. Since the subject worked at a small SBIR firm, we initiated our own
in~esti~ation.~

                                              OIG's Investigation

        During our investigation, we first examined two other proposalsSsubmitted previously by
the subject, and discovered additional instances of apparently copied text and figures. We again
wrote to the subject (Tab 3). The subject briefly responded (Tab 4) to our second letter, and
conceded that she "may have not properly cited and acknowledge wording (sic)" in these NSF
proposals, but that this "is due to a combination of unintentional oversight, formatting, and
typographical errors." The subject added that "any wording that may not have been properly
cited is a careless and unintentional mistake on my part." n e subject stated that the apparently
copied text and figures appear in parts of the proposal used "for supporting my ideas only."

        The first part of our investigation revealed that the subject copied text and figures without
citation into five proposals (Proposals A through E) submitted to NSF starting in FY 03 and
continuing into FY 07. The table below summarizes duplicated text and figures in these five
proposals (A-E). The copied text sometimes included embedded reference^.^ An example
occurs in the proposal (E), which included approximately 40 lines of copied text, and one copied
figure, from a recent publication. The copied text for proposal E included 24 embedded
references, which (allowing for one transposition) are duplicated into the References Cited
section of the subject's proposal. Even the misspelling of an author's name in the text of the
source document recurs in the subject's proposal.7,             %




' Redacted.
  Redacted.
  Redacted.
  The subject's employer is [redacted] (Firm I), which solicits SBIR funding 6om the Federal government. For
SBIR organizations, our usual procedure is not to refer the investigation to the organization because they do not
usually have policies and procedures in'place for such an investigation, nor do they usually have a sufficient number
of employees to ensure a conflict-6ee investigation. Firm 1 has approximately five employees.
  Redacted.
  An embedded reference is a reference that appears within a section of duplicated text. The placement of the
reference number in the text and the bibliographic information of the reference itself are duplicated.
7
  In proposal E [redacted], the subject copied approximately 40 lines of text, a figure, and 20 embedded references
6om a source publication. The source authors misspelled the author name for reference 13 in their text. ~ g e
subject's proposal repeated the spelling error in the text, while retaining the correct spelling of the author's name
within the duplicated reference.
        Based on the pattern of plagiarism in these five proposals, we began to prepare this report
of investigation. Shortly before this draft report was completed, we learned that the subject
submitted another proposal8 to NSF, and that the subject was now associated with another
contract research company.9 Our analysis of this latest proposal assisted by plagiarism software
revealed multiple instances of duplicated text. Our assessment of the proposal showed that it
contained a total of 83 lines of verbatim text from seven different source documents. The
annotated project description of the proposal and the annotated source documents are collected at
Tab 5;'' Some of the source documents are included as references within the proposal.
However, none of the duplicated text is enclosed within quotation marks or differentiated from
text original to the proposal.

        The subject's pattern of plagiarism is summarized in this table:

~ro~osal"                  Number of                   Copied figures              Embedded references
                           copied text lines

                           32                                   1
                           53                                   1
                           52 (44 unique lines)I2               0
                           67                                   0
                           78                                   2
                           83                                   0     -

Total                      357 unique lines                    .4                           46

                                               OIG's Assessment            '



                                                                      ',
       A finding of research misconduct by NSF requires that (I) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.13



        Our investigation revealed that the subject copied text, figures, and references, without
citation or the use of quotation marks, into six proposals (A-F) submitted to NSF over a period of
several years. The 35 different sources of duplicated text and figures includes 22 scientific
publications of other researchers, one Ph.D. dissertation, two conference proceedings, 10 web
based documents.


*   [Redacted]. The proposal was not funded.
    [Redacted]. According to public records, Firm 2 was formed in the state of Florida in August 2007.
10
    Redacted.
l 1 [Redacted]. All proposals have the subject as sole PI. None of these proposals was funded.
12
    Eight lines of duplicated text are the same as text duplicated fiom the same source into an earlier proposal
[redacted] of the subject. We do not count these same eight lines twice in the total lines.
l 3 45 C.F.R. §689.2(c).
            The NSF Grant Proposal Guide is clear: NSF expects strict adherence to the rules of
    proper scholarship and attribution. The responsibility for proper attribution and citation rests
    with authors of a proposal; all parts of the proposal should be prepared with equal care for this
    concern.l 4 1n offering text written by others as her own words, in reducing the effort required to
    prepare text and figures for her own proposals, and in providing those words and figures to NSF
    and NSF reviewers as emblematic of her own understanding of the research field, the subject
    seriously departed from accepted standards of the research community.

I                                                         Intent
           Although the subject states that her actions were careless and unintentional, OIG
    concluded that this claim is untenable. The subject copied text from 35 different sources, word
    for word, and embedded references from that copied text into her NSF proposals. As noted, even
    the misspelling of the name of a reference author in the source document reappears in the text of
    the subject's proposal. She also copied four figures into her NSF proposals, and used the figures
    there without attribution.

            Her actions were repeated over a period of years in six different NSF proposals. Even in
    the midst of an investigation by this office into alleged plagiarism in five proposals, the subject
    continued a practice of plagiarism in a sixth proposal submitted to NSF. We conclude that the
    subject knowingly copied text and figures as part of her usual and customary process for
    preparation of NSF proposals. The subject's explanation that the copied text and figures were
    only "background" is not relevant. The subject,' by design and by choice, included copied
    material within each of her six proposals submitted for competitive review.

                                                  Standard o f Proof

            Direct comparison of documents shows that copied text and figures from 35 different
    source documents were used without quotation and often without citation in the subject's NSF
    proposals. The volume of copied text and figures in six proposals submitted over a period of
    years evinces a characteristic and signature pattern of such behavior by the subject. We conclude
    that a preponderance of the evidence shows that the subject knowingly copied text and figures
    into her submitted proposals, and that her actions represent a significant departure from accepted
    practices, and that this plagiarism constitutes research misconduct.




    l4 NSF Grant Proposal Guide, Chapter 1 , Section D.3. This wording of this section remains the same in successive
    editions of the Grant Proposal Guide applicable to submissions in each year in which the subject submitted
    proposals.
                                      OIG's Recommended Disposition

         When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern; (4)
whether it had a significant impact on the research record, research sub'ects, other researchers,
institutions or the public welfare; and (5) other relevant circumstances.!5

                                                    Seriousness

       The subject copied approximately 357 lines of text and four figures from 35 different
sources into six proposals submitted to NSF. The extent of the recurrent plagiarism derails the
subject's claim that the copying was unintentional or careless. Rather, the subject chose to take
shortcuts and to prepare proposals by using, without quotation and often without citation, text
and figures from the work of others. The subject presented that work to proposal reviewers as
her own. The subject's pattern of plagiarism is a serious violation of ethical standards of
scholarship.


                                         Degree to which the Act was Knowing


        The subject's academic degrees (B.S., M.S., and Ph.D.) are from a technical university in
            . ' ~spent 18 months in a post-doctoral research position in the United States, and has
~ u r k e ~She
published with her colleagues and co-workers in journals in her field, and has authored technical
reports to Federal agencies for results from previous SBIR funding. Based on the information
provided in her biographical sketch, she can reasonably be expected to be familiar with the
standards of scholarship.

        The subject repeatedly substituted these text and figures for her own work, and thereby
reduced the effort-requiredin assembling her proposals. These were not "careless and
unintentional mistake^"'^ by the subject, but rather overt repetitive acts to support her
competitive proposal for funding Even after our letters to the subject identifying the evident
pattern of plagiarism in five different proposals submitted to NSF, the subject plagiarized once
again in another proposal submitted to NSF. The subject's commitment to "exercise more
care"18 is hollow; the subject's willingness to continue plagiarizing merely exascerbates the
conclusion that she knowingly used the uncited work of others. She did not alter her behavior
after being alerted by this investigation that her actions were improper.

                                                          Pattern




l5   45 C.F.R. 9 689.3(b).
l6   Redacted.
l7    Subject7sresponse letter of June 15,2007 (Tab 2).
''    Subject's letter of August 2, 1007 (Tab 4).
           The subject's plagiarism continued through six proposals submitted to NSF starting in FY
    2003 and extending through FY 2008. The subject's actions constitute a pattern of plagiarism.

                                                   Impact on the research record

           None of the subject's six NSF proposals was funded. We therefore conclude that the
    impact on the research record, to date, has been minimal.

                                                     Anmavatinn factors

            We are concerned that the subject does not acknowledge responsibility for the plagiarism
    in her proposals submitted to NSF. In both response letters,Igthe subject admits only that she
    "may" have omitted quotation marks, citations, and references, and she writes further that such
    omissions are inconsequential because the copied text and figures were only background
    information. Clearly, in continuing a pattern of plagiarism within the most recent NSF proposal,
    submitted even as the investigation was ongoing, the subject displays a casual indifference to
    expected standards of scholarship.

                                                    Subiect's comments

            The subject was provided a draft copy of this report for comments. The subject provided
    comments and including annotations on pages fiom her last proposal submitted to NSF (Tab 6).
    The subject's response echoes her previous responses: "I fully acknowledge thatproposals that I
    have submitted to the National Science Foundation may contain errors and the mistakes of
    unintentionally omitting and citing where I may have used text or figures from others."20 The
    subject discusses her actions in preparing her last proposal21submitted to NSF, and states: "I
    thought I took considerable care, to note or reference where I was using someone else's work or
    data as it has never been my intention now or ever in the past to use someone else's work as my
'
    own. In this noted article, I believe it is largely clear where references show where I may have
    inserted someone else's figures or text."22 The subject provided annotations to the copy of her
    proposal, circling the reference numbers that appear at the end of paragraph blocks of plagiarized
    text and figures. (Tab 6 ) No quotation marks appear around any of the duplicated text. In
    addition, stretches of plagiarized text appear in this proposal without the inclusion of any
    reference to the source document.

             Finally, the subject states "in writing all of these proposals it was through varying
    degrees of collaborative work involving other colleagues who may or may not have made
    contributions that ultimately led to failures to properly mentiodreference the published work of
    others.'"' The subject has not previously mentioned other colleagues who made contributions to
    the proposal. However, the subject does not identify any colleagues, nor does the subject
    identify any sections of text provided by her colleagues. None of the subject's proposals in

    l9    The subject's response letters are at Tab 2 and Tab 4.
    20
          Subject's comment letter of August 16,2008.
    21
         [Redacted], submitted after the subject was aware of our investigation into plagiarism in her proposals.
    22
          Subject's comment letter of August 16,2008.
    23
          Subject's comment letter of August 16,2008.
which plagiarism was established has a coPI, and no other individual is listed in these proposals
as author or co-author.

       The subject's comments do not rebut any facts established in the investigation, or add any
additional information. We therefore made no changes to the report.


                                               Recommendation

         Based on the evidence in this case, NSF OIG recommends that NSF:

         Make a finding of research misconduct against the subject; and                 *



         Send a letter of reprimand to the subject;24and
                                                                                             *
         Debar the subject from receiving Federal funds for a period of 2 years;25and
         Require that the subject submit certifications to A I G I , NSF
                                                                     ~ ~ OIG for 2 years after
         debarment ends;27and
         Require that the subject's employer submit assurances to AIGI, NSF OIG for 2 years
         after debarment ends;28and
         Prohibit the subject fiom serving as a peer reviewer of NSF proposals for 2 years after
         debarment ends;29and
         Require the subject provide certification to NSF OIG of attendance at a training course in
         proper conduct of re~earch.~'




24   A letter of reprimand is a Group I action, 45 C.F.R. §689.3(a)(l)(i),
25   Debarment is a Group I11 action, 45 C.F.R. §689.3(a)(3)(iii).
26   AIGI is the Associate Inspector General for Investigations.
27
     A certification from the subject is analogous to listed Group I actions 45 C.F.R. §689.3(a)(l).
     Assurance from the subject's employer is analogous to listed Group I actions 45 C.F.R. §689.3(a)(l).
29
     Prohibition from service as a reviewer for NSF is a Group I11 action 45 C.F.R. §689.3(a)(3)(ii).
'O   A course requirements is analogous to listed Group I actions 45 C.F.R. §689.3(a)(l).
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




                                          FEB 0 3 2009
    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Research Miscorzduct Deternzirzation



        From 2003 - 2007, you submitted six proposals to the National Science Foundation
('WSF"). As documented in the attached Investgative Report prepared by NSF's Office of
Inspector General ("OIG"), these proposals contained plagiarized text, figures, and embedded
references.

Research Miscbnduct and Proposed Sanctions

        Under NSF's regulations, "research mnisconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF . . ." 45 CFR ij 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 689.l(a)(3). A finding of research misconduct
requires that:

       (1)   There be a significant departure &om accepted practices of the relevant research
             co mninunity; and
       (2)   The research misconduct be committed intentionally, or knowingly, or recklessly;
             and
       (3) . The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).

        Your proposals contained verbatim and paraphrased text, figures, and references from
several source documents. By submitting proposals to NSF that copy the ideas or words of
another without adequate attribution, as described in the OIG Investigative Report, you
misrepreseilted someone else's work as your own. Your conduct unquestionably constitutes
*.
 ?
     .,
                                                                                                          Page 2
          plagiarism. I therefore conclude that your actions meet the definition of "research misconduct"
          set forth in NSF's regulations.

                   Pursuant to NSF regulations, the Foundation must also determine whether to make a
          ,finding of misconduct based on a preponderance of the evidence. 45 CFR 689.2(c). After
           reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
           evidence, your misconduct was committed knowingly and constituted a significant departure fkoin
           accepted practices of the relevant research community. I am, therefore, issuing a finding of
           research misconduct against you.

                   NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be
          taken in response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a
          letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
          requiring that an institution or individual obtain special prior approval of particular activities fiom
          NSF; and requiring that an institutional representative certify as to the accuracy of reports or
          certifications of compliance with particular requirements. 45 CFR 689.3(a)(l). Group I1 actions
          include award suspension or restrictions on designated activities or expenditures; requiring special
          reviews of requests for hnding; and requiring correction to the research record. 45 CFR
          689.3(a)(2). Group I11 actions include suspension or termination of awards; prohibitions on
          participation as NSF reviewers, advisors or consultants; and debarment or suspension fiom
          participation in NSF programs. 45 CFR 689.3(a)(3).

                  In determining the severity of the sanction to impose for research misconduct, I have
          considered the seriousness of the misconduct; our determination that it was committed knowingly;
          the determination that it was part of a pattern; and the fact that your conduct did not have an
          impact on the published research record. I have also considered other relevant circumstances. 45
          CFR 689.3 (b).

              In light of the foregoing, I am taking the following actions:

                  From the date of this letter until January 20,201 3, you are required to certify that
                  proposals or reports you submit to NSF do not contain plagiarized, falsified, or fabricated
                  material.

                 From the date of this letter until January 20, 201 3, you are required to submit assurances
                 by a responsible official of your employer that any proposals or reports you submit to NSF
                 do not contain plagiarized, falsified, or fabricated material.

                  From the date of this letter through January 20, 201 3, you are prohibited fiom serving as
                  an NSF reviewer, advisor, or consultant.

                 You are required to complete a course on research ethics and plagiarism by December 3 1,
                 2009. You must certify in writing that such training has been completed, and must
                 provide documentation to prove your attendance at that course.
                                                                                             Page 3
   All certifications and assurances should be subinitted in writing to the Office of Inspector
General, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
Virginia 22230.

Procedures Governing Appeals

         Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR 689.1O(a). Any appeal
should be addressed to the Director, 4201 Wilson Boulevard, Arlington, Virginia, 22230. If we
do not receive your appeal within the 30-day period, this decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call            , Assistant General Counsel, at (703)
292-8060.



                                                      Sincerely,



                                                      Cora B. Marrett
                                                      Acting Deputy Director

Enclosures
-  Investigative Report
- 45 CFR Part 689
